July 30, 2002

LEE R. HEATH
CHIEF POSTAL INSPECTOR

DEWITT O. HARRIS
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: 	 Audit Report – Postal Inspection Service Health Examination Program
           (Report Number OV-AR-02-003(R)

This report presents the results of our audit of the Postal Inspection Service’s health
examination program (Project Number 01JA002OV000). The report was initially issued
on June 21, 2002, without management comments. We are reissuing this report
because management comments were subsequently received. We have incorporated
their comments in this revised report, along with our evaluation of their comments and
planned actions.

The audit was initiated based on several complaints received by the Office of Inspector
General (OIG) alleging that Inspection Service management used their health
examination program to inappropriately remove a targeted group of postal inspectors
from the Inspection Service. Our objectives were to determine whether the Inspection
Service’s health examination program was properly managed, and implemented in a
consistent and effective manner.

While we did not find that management used their health examination program to
inappropriately remove a targeted group of postal inspectors, the audit revealed that
management did not ensure postal inspectors possessed the physical abilities
necessary to effectively perform their duties. Specifically, management did not develop
or finalize physical requirements or medical standards governing periodic health
examinations, ensure postal inspectors completed health examinations as required, or
utilize an examination rating system that clearly defined those conditions resulting in
postal inspectors not meeting the physical requirements of their position. We
recommended that management finalize physical requirements and medical standards
for postal inspector positions, ensure required health examinations are taken, and
revise the examination rating system to clearly identify whether postal inspectors meet
established position requirements.
Management disagreed with our recommendations to develop physical requirements for
postal inspector positions, and a revised rating system for periodic health examinations.
However, although management disagreed with these recommendations, they initiated
corrective actions that satisfy the intent of the recommendations and should correct the
issues we identified. Management further agreed to ensure that health examinations
are taken as required, medical standards for postal inspector positions are finalized, and
inspector medical files are appropriately retained and stored. The OIG considers
recommendations 1, 2, and 5 significant and, therefore, requires OIG concurrence
before closure. Consequently, the recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed. Management’s verbatim comments are included in
the appendix of this report.

We appreciate the cooperation and courtesies provided by your staff during this audit. If
you have any questions, please contact Cathleen A. Berrick, director, Oversight, at
(703) 248-2100, or me at (703) 248-2300.



Kirt West
Assistant Inspector General for
 Congressional, Oversight, and Legal Services

cc: 	Suzanne F. Medvidovich
     James J. Rowan
     Susan M. Duchek
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)



                           TABLE OF CONTENTS

 Executive Summary
                                                   i

 Part I


 Introduction
                                                       1

    Background                                                       1

    Objectives, Scope, and Methodology                               2

    Prior Audit Coverage                                             3


 Part II

 Audit Results                                                       4


    Management and Implementation of Health Examination Program      4

    Recommendations                                                 10

    Management’s Comments                                           10

    Evaluation of Management’s Comments                             10


 Appendix. Management’s Comments                                    14





                                         Restricted Information
Postal Inspection Service Health Examination Program	                           OV-AR-02-003(R)



                                  EXECUTIVE SUMMARY
 Introduction	                 This report presents the results of our audit of the Inspection
                               Service’s health examination program. The audit was
                               initiated based on several complaints received by the Office
                               of Inspector General (OIG) alleging Inspection Service
                               management used their health examination program to
                               inappropriately remove a targeted group of postal inspectors
                               from the Inspection Service. The audit was included in our
                               fiscal year (FY) 2002 audit workload plan. Our objectives
                               were to determine whether the Inspection Service’s health
                               examination program was properly managed, and
                               implemented in a consistent and effective manner.

 Results in Brief	             The audit revealed the Inspection Service did not ensure
                               that postal inspectors possessed the physical abilities
                               necessary to effectively perform their duties. As a result,
                               management placed postal inspectors and others who are
                               dependent upon their performance at risk. Specifically,
                               management did not:

                               •	 Establish physical requirements for postal inspector
                                  positions.

                               •	 Finalize medical standards governing periodic health
                                  examinations.

                               •	 Ensure all postal inspectors obtained or completed
                                  periodic health examinations as required.

                               •	 Use a health examination rating system that clearly
                                  defined those conditions resulting in postal inspectors
                                  not meeting the physical requirements of their position.

                               •	 Appropriately update or maintain Inspection Service
                                  employee medical files.

                               Although management of the Inspection Service’s health
                               examination program could be improved, we did not find
                               that management used the program to inappropriately
                               remove targeted groups of postal inspectors from service.
                               We also determined management generally ensured
                               payments for contracted medical examinations were correct.




                                                    i
                                         Restricted Information
Postal Inspection Service Health Examination Program	                          OV-AR-02-003(R)



 Summary of 	                  We recommended management finalize physical
 Recommendations	              requirements and medical standards for postal inspector
                               positions, ensure health examinations are taken as
                               required, clarify the health examination rating system, and
                               appropriately retain and store employee medical files.

 Summary of                    This report was previously issued on June 21, 2002, without
 Management’s                  management comments. We are reissuing this report
 Comments                      because after the report was issued, the acting deputy chief
                               postal inspector, Professional Standards and Resource
                               Development, provided comments for both the Inspection
                               Service and the vice president, Employee Resource
                               Management. Management provided a 13-page response
                               that contained many comments outside the scope of
                               appropriate management comments. Much of the
                               information was extraneous to the core issues raised in the
                               report. As a result, we did not respond to any of these
                               extraneous comments.

                               Management disagreed with our recommendations to
                               develop physical requirements for postal inspector
                               positions, and to revise the Inspection Service’s rating
                               system for periodic health examinations. However, after
                               scrutinizing their reply, we identified alternative
                               management actions that satisfied the intent of our
                               recommendations. Management stated they will complete
                               and publish physical requirements for inspector positions,
                               ensure physical requirements are consistent with the
                               requirements for federal law enforcement officers, and
                               coordinate established physical requirements with the
                               National medical director. Management further stated they
                               are modifying their current examination rating system to
                               clarify ratings definitions and resulting actions taken.

                               Management also agreed to ensure health examinations are
                               taken as required, medical standards for postal inspector
                               positions are finalized, and inspector medical files are
                               appropriately retained and stored. Management’s
                               comments, in their entirety, are included in the appendix of
                               this report.

 Overall Evaluation of         We consider management’s actions responsive to the intent
 Management’s                  of our recommendations.
 Comments



                                                    ii
                                         Restricted Information
Postal Inspection Service Health Examination Program	                                             OV-AR-02-003(R)



                                            INTRODUCTION
    Background	                    The Inspection Service’s health examination program
                                   provides for periodic health examinations for postal
                                   inspectors and forensic and technical services personnel.
                                   The program was designed to ensure that the health of
                                   Inspection Service employees permits the effective
                                   discharge of their duties and minimizes danger to
                                   themselves and others who are dependent upon their
                                   performance.

                                   Periodic health examinations assess an employee’s ability
                                   to perform the physical requirements of their position, and
                                   include such medical assessments as vision and hearing
                                   tests, blood analysis, and a review of an employee’s
                                   medical history.

                                   In April 1997, the Postal Service contracted with
                                   Comprehensive Health Services, Incorporated, to
                                   administer a comprehensive health examination program for
                                   Postal Service employees, including postal inspectors and
                                   Inspection Service forensic and technical services
                                   personnel.1 The contractor is responsible for contacting
                                   employees, scheduling examinations, and assigning
                                   medical ratings.

                                   Human Resource officials at the Newark and South
                                   San Francisco Operations Support Groups manage the
                                   Inspection Service’s health examination program. The
                                   Postal Service national medical director or associate
                                   medical officer recommends to management those duties, if
                                   any, an employee can safely perform while medical
                                   deficiencies are evaluated.

                                   The Inspection Service Manual, Chapter 144, “Health
                                   Examinations,” requires that postal inspectors and forensics
                                   and technical services personnel receive periodic health
                                   examinations as a condition of employment. The manual
                                   further stipulates Inspection Service management is
                                   responsible for ensuring employees fulfill their obligations
                                   under the health examination program.



1
  Comprehensive Health Services, Incorporated, also administers health examinations for Postal Service Office of
Inspector General (OIG) employees, and Postal Service executives.



                                                         1
                                              Restricted Information
Postal Inspection Service Health Examination Program	                                               OV-AR-02-003(R)




    Objectives, Scope, 	           Our objectives were to determine whether the Inspection
    and Methodology	               Service’s health examination program was properly
                                   managed, and implemented in a consistent and effective
                                   manner. To accomplish our objective related to program
                                   management, we reviewed Inspection Service guidance and
                                   the Postal Service contract with Comprehensive Health
                                   Services, Incorporated, related to the health examination
                                   program. We also performed a demographic analysis to
                                   determine whether postal inspectors of a certain age,
                                   gender, or duty location were inappropriately targeted for
                                   removal based on the results of periodic health
                                   examinations. We also interviewed the Postal Service
                                   national medical director and associate medical officer,
                                   contractor medical staff, officials from the Inspection Service
                                   Professional Standards and Resource Development and
                                   Human Resources offices, and postal inspectors concerning
                                   program management and operation.

                                   To accomplish our objective related to program
                                   implementation, we reviewed Inspection Service guidance
                                   and medical standards, employee medical records,
                                   contractor statistical reports,2 employee personnel actions
                                   following adverse medical ratings,3 billing records,4 and
                                   Inspection Service procedures for maintaining and
                                   disposing of medical files. We also reviewed the Code of
                                   Federal Regulations and Office of Personnel Management
                                   guidance related to medical and physical standards for law
                                   enforcement personnel. We interviewed the Postal Service
                                   national medical director, Postal Service associate medical
                                   officer, contractor medical staff, and postal inspectors to
                                   determine whether the program was consistently and
                                   effectively implemented.




2
  We statistically selected and reviewed medical records from 279 periodic health examinations taken by postal
inspectors from October 1998 through April 2001, and contractor statistical reports from fiscal year (FY) 1998 through
FY 2000, to determine whether examination ratings were consistently assigned based on established medical
standards.
3
  We judgmentally selected and reviewed personnel actions for 12 out of 28 postal inspectors receiving a D medical
rating from March 2000 through May 2001, to determine whether actions were consistent with Inspection Service
policy. We found that actions taken as a result of assigned medical ratings were consistent with established policy.
4
  We judgmentally selected and reviewed billing records for 141 medical examinations given from November 1999
through July 2000, to determine whether required medical tests were completed and invoices were appropriately
reviewed, certified, and adjusted.



                                                          2
                                               Restricted Information
Postal Inspection Service Health Examination Program                            OV-AR-02-003(R)




                               We benchmarked with officials from the United States
                               Department of Agriculture; Department of Alcohol, Tobacco,
                               and Firearms; Defense Criminal Investigative Service; and
                               the United States Marshals Service to determine their
                               procedures for administering periodic health examinations.
                               We did not independently verify information received from
                               these agencies.

                               We conducted the audit from March 2001 through July 2002
                               in accordance with generally accepted government auditing
                               standards. We reviewed management controls related to
                               the Inspection Service’s management and implementation
                               of their health examination program. Specifically, we
                               reviewed controls designed to ensure medical examinations
                               were taken as required; ratings were assigned, and
                               personnel actions taken, based on established criteria; and
                               examination payments were made, and medical records
                               maintained, in accordance with contractual requirements.
                               We did not identify any material internal control
                               weaknesses. We assessed the accuracy of data contained
                               in the Postal Service Production Application System –
                               Employee Master File and determined that it was sufficient
                               to support our audit conclusions. We discussed our
                               conclusions and observations with management officials
                               and included their comments, where appropriate.

 Prior Audit Coverage          We did not identify any prior audits or reviews related to the
                               Inspection Service’s health examination program.




                                                    3
                                         Restricted Information
Postal Inspection Service Health Examination Program                                               OV-AR-02-003(R)



                                                    AUDIT RESULTS
    Management and                 The Inspection Service did not ensure postal inspectors
    Implementation of              possessed the physical abilities necessary to effectively
    Health Examination             perform their duties. As a result, management placed postal
    Program                        inspectors and others who are dependent upon their
                                   performance at risk. Specifically, management did not:

                                   •   Establish physical requirements for postal inspector
                                       positions.

                                   •   Finalize medical standards governing periodic health
                                       examinations.

                                   •   Use a health examination rating system that clearly
                                       defined those conditions resulting in postal inspectors not
                                       meeting the physical requirements of their position.

                                   •   Properly update or maintain Inspection Service employee
                                       medical files.

                                   Although management of the Inspection Service’s health
                                   examination program could be improved, we did not find that
                                   management used the program to inappropriately remove
                                   postal inspectors from service based on age, gender, or duty
                                   location. We also determined management generally
                                   ensured contractor invoices were certified before payment,
                                   payments were consistent with contractual requirements,
                                   and identified billing adjustments were made.

    Physical Requirements          Inspection Service management did not establish mandatory
    and Medical Standards          physical requirements for postal inspector positions, or, in
                                   coordination with the national medical director, finalize
                                   medical standards used to assess an inspector’s fitness-for-
                                   duty during periodic health examinations.5 Physical
                                   requirements represent those physical abilities essential for
                                   the successful performance of duties, such as the ability to
                                   conduct surveillance, perform search and seizures, and
                                   apprehend suspects. Medical standards are used to assess
                                   an individual’s ability, during periodic health examinations, to
                                   meet the physical requirements of their position. Without
                                   established requirements, the physical capabilities postal
5
 Inspection Service management is responsible for developing physical requirements for postal inspector positions.
The Postal Service national medical director, in coordination with Inspection Service management, is responsible for
developing medical standards for postal inspectors based on established physical requirements.



                                                         4
                                              Restricted Information
Postal Inspection Service Health Examination Program                             OV-AR-02-003(R)



                               inspectors must possess to successfully and safely perform
                               their jobs are unknown. Consequently, accurate medical
                               standards cannot be developed to assess those required
                               physical abilities during periodic health examinations.

                               Because physical requirements for postal inspector positions
                               have not been defined, medical standards used to assess a
                               postal inspector’s fitness-for-duty during periodic health
                               examinations have been in draft since September 1996, and
                               have been frequently revised. Revisions were often not
                               documented in the draft guidance or communicated to postal
                               inspectors. The national medical director and contractor
                               medical staff stated that the lack of established physical
                               requirements, and the frequency with which medical
                               standards were revised, often resulted in confusion
                               regarding whether postal inspectors met the physical
                               requirements of the position. In addition, postal inspectors
                               questioned the fairness of the examination process when,
                               due to the frequency with which standards were revised,
                               postal inspectors with similar medical conditions received
                               different medical ratings based on the timeframe they
                               received their examination.

                               Postal inspectors, like other federal law enforcement
                               officers, receive special retirement benefits under the Civil
                               Service Retirement System and the Federal Employees’
                               Retirement System due to the hazardous nature of law
                               enforcement work. Title 5 of the United States Code,
                               Section 8401(17), requires that due to the rigorous duties
                               law enforcement officers are required to perform,
                               employment opportunities should be limited to physically
                               vigorous individuals. Because postal inspectors are
                               required to perform rigorous duties, we believe it is
                               imperative that accurate physical requirements for postal
                               inspector positions be developed.

                               In addition, the Code of Federal Regulations, 5 CFR 339,
                               “Medical Qualification Determinations,” and the Office of
                               Personnel Management Operations Manual, Qualification
                               Standards for General Schedule Positions, require that
                               medical standards for federal employees performing
                               arduous or hazardous duties be documented and directly
                               related to the physical requirements of the position.




                                                    5
                                         Restricted Information
Postal Inspection Service Health Examination Program	                            OV-AR-02-003(R)




                               Although these regulations are not applicable to the Postal
                               Service, they do apply to other federal law enforcement
                               agencies, whose criminal investigators, like postal
                               inspectors, perform hazardous and arduous work, and, as a
                               result, receive special law enforcement retirement benefits.

                               In September 2000, Inspection Service management issued
                               a National Communications that they were establishing
                               physical requirements and reviewing medical standards for
                               postal inspector positions. However, in March 2002, after
                               briefing our audit results to management, Inspection Service
                               officials stated they decided to no longer develop physical
                               requirements for postal inspectors because doing so would
                               be cost-prohibitive. Management further stated that instead
                               of establishing physical requirements, they would use the
                               requirements currently identified in postal inspector position
                               descriptions.

                               Based on management’s comments, we reviewed postal
                               inspector position descriptions and found they only
                               addressed postal inspector duties and responsibilities, and
                               did not identify any physical abilities required for the
                               successful performance of duties. Accordingly, we believe
                               these descriptions would not adequately support the
                               establishment of accurate medical standards for postal
                               inspectors.

 Periodic Health               The Inspection Service did not ensure postal inspectors
 Examinations                  obtained or completed periodic health examinations as
                               required. From January 1999 through June 2001:

                               •	 92 of approximately 1,500 postal inspectors required to
                                  take a health examination missed their examination.

                               •	 25 of the 92 postal inspectors who missed their required
                                  health examination had not taken an examination in over
                                  3 years.

                               •	 An additional 101 postal inspectors either declined to
                                  take all required portions of their examination or did not
                                  complete portions of their examinations that required




                                                    6
                                         Restricted Information
Postal Inspection Service Health Examination Program                                                 OV-AR-02-003(R)



                                    follow-up testing.6 Examples of procedures not completed
                                    include cardiac stress tests, chest x-rays, and visual
                                    screenings.

                                    The Inspection Service Manual requires that all postal
                                    inspectors obtain and complete periodic health examinations
                                    as a condition of employment. Examinations are required to
                                    be given beginning at age 30 and are provided in 1- to
                                    3-year intervals based on age. The Postal Service’s
                                    contract with Comprehensive Health Services, Incorporated,
                                    requires that the contractor send letters to Inspection
                                    Service employees notifying them of their required
                                    examination, and reminding them of examinations that were
                                    not completed. The contract further requires that the
                                    contractor periodically mail missed examination reports to
                                    Inspection Service management identifying employees who
                                    missed or did not complete required examinations.

                                    Officials from Inspection Service operations support groups
                                    stated they often contacted postal inspectors identified on
                                    the contractor’s missed examination report by email to
                                    remind them of their missed examination. However, officials
                                    stated they did not follow up to ensure that examinations
                                    were taken because it was unclear whether they had the
                                    authority to do so.

                                    During our audit, in September 2001, management updated
                                    the Inspection Service Manual to require that operations
                                    support group officials notify the appropriate inspector-in-
                                    charge of employees who missed examinations. The
                                    manual was further revised to require postal inspectors-in-
                                    charge to take appropriate action if examinations were not
                                    completed. However, we found as of December 12, 2001,
                                    only 38 of the 63 postal inspectors still employed by the
                                    Inspection Service had subsequently taken an examination.7

                                    In April 2002, in response to a discussion draft of this report,
                                    management stated they developed standard operating
                                    procedures requiring follow-up of employee health

6
  In response to a discussion draft of this report, management stated that 17 of the 101 postal inspectors identified as
having declined or not completed their required examination have either retired, resigned, or have subsequently
completed all required procedures.
7
  In response to a discussion draft of this report, management stated that four postal inspectors identified as not
having taken an examination prior to December 12, 2001, had taken examinations. However, management did not
provide documentation identifying that the examinations were taken, and this information was not included in any of
the inspectors’ medical files.



                                                          7
                                               Restricted Information
Postal Inspection Service Health Examination Program                             OV-AR-02-003(R)



                               examinations by the employee’s executive manager.
                               Management further stated employees are required to
                               complete and return a physician evaluation form within
                               5 working days of completing their health examination,
                               which is reviewed for any missed procedures and to
                               determine necessary follow-up actions. Management stated
                               concurrent with the mailing of the physician evaluation
                               forms, inspectors in charge/managers are provided a listing
                               of employees receiving health examination packets.

 Periodic Health               The Inspection Service’s health examination rating system
 Examination Rating            did not clearly define conditions resulting in postal inspectors
 System                        not meeting the physical requirements of their positions. As
                               a result, physicians assigning medical ratings were
                               sometimes confused regarding which rating to assign, and
                               the resulting action to be taken.

                               The Inspection Service Manual requires an A, B, C,
                               or D rating be assigned to postal inspectors completing
                               periodic health examinations. An A or B rating signifies no
                               significant medical deficiencies, while a C or D rating
                               represents medical deficiencies that preclude the full or
                               present performance of duties. During our audit, in
                               September 2001, the Inspection Service Manual was
                               updated to require that management make reasonable
                               efforts to accommodate employees receiving both C and
                               D ratings while medical deficiencies are evaluated. Prior to
                               September 2001, employees receiving D ratings were
                               automatically placed on administrative leave, while those
                               receiving C ratings were assessed on a case-by-case basis.

                               The national medical director and contractor medical staff
                               stated the similar definitions for C and D ratings sometimes
                               resulted in confusion when assigning ratings. As a result,
                               officials stated they preferred a more basic rating system,
                               such as normal/departure from normal, be used. Neither the
                               national medical director, associate medical officer,
                               contractor medical staff, or Inspection Service management
                               knew when, or for what purpose, the A, B, C, and D rating
                               system was developed.

                               We benchmarked with four other federal law enforcement
                               agencies to determine their procedures for assigning ratings
                               during periodic health examinations. None of the agencies




                                                    8
                                         Restricted Information
Postal Inspection Service Health Examination Program                             OV-AR-02-003(R)



                               surveyed used an A, B, C, D, or similar rating system, but
                               rather used a “met physical requirements/did not meet
                               physical requirements” system to determine their
                               employee’s ability to successfully perform their duties.

 Update and Retention          The Postal Service and Inspection Service did not provide
 of Employee Medical           follow-up medical test results to the contractor for
 Files                         consideration and inclusion in employee medical files. As a
                               result, contractor medical staff stated they did not receive all
                               relevant medical information necessary to conduct a
                               complete medical evaluation. Neither the Inspection Service
                               Manual nor Postal Service contract with Comprehensive
                               Health Services, Incorporated, requires that results of
                               follow-up medical tests be forwarded to the contractor for
                               consideration and inclusion in employee medical files.

                               Further, the Postal Service did not obtain approximately
                               500 Inspection Service employee medical files from the
                               contractor for disposition, for employees no longer employed
                               by the Inspection Service. The contract between the Postal
                               Service and Comprehensive Health Services, Incorporated,
                               requires that the contractor forward medical records for
                               individuals no longer employed by the Inspection Service to
                               the national medical director for disposition in accordance
                               with federal regulations. In addition, the Postal Service
                               Administrative Services Manual, Section 120.090, requires
                               that medical records for employees separated from the
                               Postal Service be sent to the National Personnel Records
                               Center for storage, or to the federal agency to which an
                               employee transfers. The national medical director cited high
                               maintenance costs, as well as limited space and staffing, as
                               reasons for not retaining and storing the files.

                               We discussed the update and retention of employee medical
                               files with Inspection Service management. Management
                               stated they were considering having a third party maintain
                               medical records for employees no longer employed by the
                               Inspection Service.

 Importance of an              As a law enforcement organization, it is critical that the
 Effectively Managed           Inspection Service ensure its postal inspectors are
 Health Examination            physically capable of performing their duties. To achieve
 Program                       this assurance, health examinations should be based on the
                               specific physical requirements of the position, and be



                                                    9
                                         Restricted Information
Postal Inspection Service Health Examination Program	                            OV-AR-02-003(R)



                               routinely taken and assessed. Further, the results of health
                               examinations should be understandable to all parties
                               involved, and clearly identify whether a postal inspector is
                               physically capable of performing their duties.

                               By not finalizing physical requirements and medical
                               standards, and ensuring all postal inspectors take health
                               examinations as required, management placed postal
                               inspectors and others who are dependent upon their
                               performance at risk. In addition, postal inspectors could
                               perceive the health examination program as unfair due to
                               the frequency with which standards were revised, and the
                               slight distinction between various medical ratings.

 Recommendation                We recommend the chief postal inspector:

                               1.	 Develop and publish complete physical requirements,
                                   identifying those physical abilities necessary for the
                                   successful performance of duties, for postal inspector
                                   positions.

 Management’s                  Management disagreed with the recommendation, stating
 Comments                      the Inspection Service relied on unpublished physical
                               requirements and general employment requirements to
                               assess an inspector’s fitness for duty during periodic health
                               examinations. However, although management disagreed
                               with the recommendation, they stated they are currently
                               revising their draft physical requirements, in association with
                               the national medical director, to make them comparable to
                               the standards set forth by the Office of Personnel
                               Management for criminal investigator positions.

 Evaluation of                 Although management stated they disagreed with the
 Management’s                  recommendation, they have initiated actions to ensure
 Comments                      physical requirements for inspector positions are finalized
                               and published; are consistent with the requirements for
                               federal law enforcement positions; and are coordinated with
                               the national medical director. We believe these actions
                               should satisfy the intent of our recommendation, and will
                               help ensure the development of accurate medical standards
                               from which to base periodic health examinations.
                               Accordingly, we do not plan to pursue this matter through
                               the formal audit resolution process.




                                                   10
                                         Restricted Information
Postal Inspection Service Health Examination Program	                            OV-AR-02-003(R)




 Recommendation                2.	 Establish controls to ensure postal inspectors-in-charge
                                   are notified of employees who missed required health
                                   examinations, and appropriate action is taken to ensure
                                   examinations are completed.

 Management’s                  Management agreed with the recommendation, stating the
 Comments                      Inspection Service has completed efforts to ensure periodic
                               health examinations are completed in a timely manner.
                               These efforts include the establishment of standard
                               operating procedures addressing follow-up by human
                               resource specialists when examination procedures are
                               declined or not completed; the finalization of a database that
                               facilitates the tracking and flagging of examinations and
                               enhanced coordination between responsible parties; and the
                               centralization of the health examination program at the
                               Newark Operations Support Group.

 Evaluation of                 Management’s actions are responsive to the
 Management’s                  recommendation.
 Comments

 Recommendation                3. Ensure follow-up medical test results are provided to
                                  contractor medical staff for consideration and inclusion
                                  in employee medical files.

 Management’s                  Management disagreed with the recommendation, stating
 Comments                      the Inspection Service provides follow-up medical test
                               results to the national medical director, who in turn
                               determines an employee’s fitness for duty or ability to
                               perform duties in a restricted capacity. Management further
                               stated they have concerns providing test results to the
                               medical contractor given the sensitive and confidential
                               nature of the information.

 Evaluation of                 We disagree with management’s assertion that providing
 Management’s                  follow-up medical test results to the national medical director
 Comments                      ensures that an employee’s fitness for duty, or ability to
                               perform duties in a restricted capacity, is fully assessed.
                               Contractor medical staff are required to assign medical
                               ratings to inspectors receiving periodic health examinations.
                               Both the national medical director and contractor medical
                               staff stated that without the most current and complete
                               information available, it was difficult for the contractor to
                               make accurate medical assessments.


                                                   11
                                         Restricted Information
Postal Inspection Service Health Examination Program	                          OV-AR-02-003(R)




                               We also do not agree that follow-up medical test results
                               should not be provided to the medical contractor due to the
                               sensitive and confidential nature of the information. The
                               medical contractor already maintains sensitive and
                               confidential medical data for each inspector assessed, and
                               is contractually required to adequately safeguard this
                               information. Although we disagree with management, we do
                               not plan to pursue this disagreement through the formal
                               audit resolution process.

 Recommendation                4.	 Develop a revised rating system for periodic health
                                   examinations that clearly identifies whether an
                                   employee meets the physical requirements of their
                                   position.

 Management’s                  Management disagreed with the recommendation, stating a
 Comments                      pass/fail examination rating system would not meet the
                               Inspection Service’s needs. However, although
                               management disagreed with the recommendation, they
                               stated that they are modifying their current examination
                               rating system to clarify ratings definitions and resulting
                               actions taken. Management further recognized the need to
                               draw a greater distinction between the manner in which
                               C and D ratings are given, and is implementing several
                               changes to achieve this distinction by making temporary and
                               reasonable accommodations while individual medical
                               situations are addressed. Management stated the national
                               medical director has concurred with all planned
                               modifications to their rating system.

 Evaluation of                 Although management disagreed with the recommendation,
 Management’s                  they stated that they are modifying their current examination
 Comments                      rating system to clarify ratings definitions and resulting
                               actions taken, as well as establish a greater distinction
                               between the manner in which C and D ratings are given.
                               We consider management’s planned corrective actions to be
                               responsive to the intent of the recommendation.
                               Accordingly, we do not plan to pursue this matter through
                               the formal audit resolution process.




                                                   12
                                         Restricted Information
Postal Inspection Service Health Examination Program	                           OV-AR-02-003(R)




 Recommendation	               We recommend the vice president, Employee Resource
                               Management:

                               5.	 Finalize and publish medical standards for postal
                                   inspector positions based on established physical
                                   standards, once developed.

 Management’s                  Management agreed with the recommendation, stating they
 Comments                      are in the process of finalizing inspector medical standards,
                               in coordination with the national medical director, as well as
                               physical requirements for inspector positions. Management
                               stated the medical standards, and associated physical
                               requirements, should be published within 60 days, pending
                               approval of the Inspection Service Executive Committee.

 Evaluation of                 Management’s actions are responsive to the
 Management’s                  recommendation.
 Comments

 Recommendation                We recommend the vice president, Employee Resource
                               Management:

                               6.   Establish procedures for retaining and storing medical
                                    files for persons no longer employed by the Inspection
                                    Service in accordance with contractual and federal
                                    requirements.

 Management’s                  Management agreed with the recommendation, stating that
 Comments                      the medical contractor will be required to send employee
                               medical files, for retired or separated individuals, to the
                               Newark Operations Support Group where they will be kept
                               for the appropriate retention period.

 Evaluation of                 Management’s actions are responsive to the
 Management’s                  recommendation.
 Comments




                                                   13
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                    APPENDIX. MANAGEMENT’S COMMENTS




                                                   14
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   15
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   16
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   17
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   18
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   19
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   20
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   21
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   22
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   23
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   24
                                         Restricted Information
Postal Inspection Service Health Examination Program              OV-AR-02-003(R)




                                                   25
                                         Restricted Information
